App. 1
APPENDIX A
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

DIANA GARVEY,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2020-1128
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 18-5059, Senior Judge Robert N. Davis.
-----------------------------------------------------------------------

Decided: August 27, 2020
-----------------------------------------------------------------------

ROBERT C. BROWN, JR., Norman, OK, for claimantappellant.
AMANDA TANTUM, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for respondent-appellee. Also represented by ETHAN P. DAVIS, TARA K. HOGAN, ROBERT EDWARD KIRSCHMAN, JR.; JONATHAN KRISCH, Y. KEN LEE,

App. 2
Ofﬁce of General Counsel, United States Department
of Veterans Affairs, Washington, DC.
-----------------------------------------------------------------------

Before LOURIE, SCHALL, and DYK, Circuit Judges.
DYK, Circuit Judge.
Diana Garvey is the widow of John P. Garvey. Mr.
Garvey served in the Army from 1966 to 1970. Mrs.
Garvey sought dependency and indemnity compensation and death pension benefits on the basis of Mr.
Garvey’s Army service. The Department of Veterans
Affairs (“VA”) denied Mrs. Garvey’s claim because Mr.
Garvey was discharged from the Army for “willful and
persistent misconduct,” and thus he was ineligible for
beneﬁts under the applicable regulation. See 38 C.F.R.
§ 3.12(d)(4). Mrs. Garvey now challenges the validity of
Rule 3.12(d)(4) as being contrary to 38 U.S.C. § 5303.
We hold that the regulation is consistent with, and
authorized by, the statute. Section 5303, contrary to
Mrs. Garvey’s assertion, is not the exclusive test for
beneﬁts eligibility. A former servicemember is ineligible for beneﬁts unless he or she is a “veteran” as deﬁned in 38 U.S.C. § 101(2). To be a “veteran” under
section 101(2), a former servicemember must have
been discharged “under conditions other than dishonorable.” Id. The VA was authorized to define a discharge
for willful and persistent misconduct as a discharge
under “dishonorable conditions.” See 38 C.F.R. § 3.12.
We therefore afﬁrm.

App. 3
BACKGROUND
John P. Garvey served in the U.S. Army from February 1966 to May 1970. After training, Mr. Garvey
was posted to Germany, where he served until November 1967. While in Germany, Mr. Garvey was punished
under Article 15 of the Uniform Code of Military Justice for “disorderly conduct” in an incident with a German taxi driver.1 J.A. 74. However, Mr. Garvey’s service
record indicates that his “conduct” and “efﬁciency”
while in Germany were “[e]xc[ellent].” J.A. 10.
Beginning in December 1967, Mr. Garvey was
posted to Vietnam, where his record deteriorated signiﬁcantly. In June 1968, Mr. Garvey was convicted by
special court-martial of possessing four pounds of cannabis with intent to sell. He was sentenced 90 days of
conﬁnement, ordered to forfeit a portion of his pay, and
reduced in rank. In November 1968, Mr. Garvey was
convicted by special court-martial of being absent
without leave (“AWOL”) from September 9, 1968, to October 1, 1968. In June 1969, he was convicted by special
court-martial of being AWOL from April 18, 1969, to
June 5, 1969. For each of these convictions he was
given a suspended sentence of conﬁnement and ordered to forfeit a portion of his pay. In April 1970, Mr.
Garvey was convicted by special court-martial of being
AWOL from February 16, 1970, to April 1, 1970. For

1

Article 15 authorizes commanding ofﬁcers to impose certain “disciplinary punishments for minor offenses without the intervention of a court-martial.” 10 U.S.C. § 815(b).

App. 4
this conviction, he was sentenced to ﬁve months of conﬁnement and again forfeited a portion of his pay.
Because of these events of misconduct, Mr. Garvey
was discharged as unﬁt for service on May 13, 1970,
with an “Undesirable Discharge.”2 J.A. 32. He waived
consideration of his case before a board of officers
and acknowledged that he “may be ineligible for
many or all beneﬁts as a veteran under both Federal
and State laws.” J.A. 66. On June 23, 1977, under the
Special Discharge Review Program, a procedure by
which Vietnam-era servicemembers could have their
discharge status upgraded if they met certain criteria,
Mr. Garvey’s discharge status was upgraded to “Under
Honorable Conditions (General).” J.A. 35. However, on
August 1, 1978, a Discharge Review Board found that
Mr. Garvey would not have been entitled to an upgrade
under generally applicable standards. The apparent effect of this ﬁnding was to prevent Mr. Garvey from receiving beneﬁts on the basis of his upgraded status. See
38 U.S.C. § 5303(e); 38 C.F.R. § 3.12(h).
Claimant-appellant Diana Garvey married Mr.
Garvey on November 10, 1979. Mr. Garvey died on August 13, 2010. On September 4, 2012, Mrs. Garvey applied for dependency and indemnity compensation and
death pension beneﬁts on the basis of Mr. Garvey’s service.
On August 28, 2018, the Board of Veterans’ Appeals (“Board”) denied Mrs. Garvey’s claim. The Board
2

We capitalize formal discharge status (e.g., Honorable, Dishonorable, Undesirable, etc.).

App. 5
concluded that Mr. Garvey was ineligible for beneﬁts
because he was discharged for “willful and persistent
misconduct,” which under 38 C.F.R. § 3.12(d)(4) is a
bar to beneﬁts. On September 30, 2019, the United
States Court of Appeals for Veterans Claims (“Veterans Court”) afﬁrmed the Board’s decision, rejecting
Mrs. Garvey’s contention that the “willful and persistent misconduct” bar, section 3.12(d)(4), is contrary to
statute.
Mrs. Garvey appealed to this court. We have jurisdiction under 38 U.S.C. § 7292.
DISCUSSION
On review of a decision from the Veterans Court,
this court “shall decide all relevant questions of law,
including interpreting constitutional and statutory
provisions.” 38 U.S.C. § 7292(d)(1). This court “shall
hold unlawful and set aside any regulation . . . that
was relied upon in the decision of the [Veterans Court]
that [this court] ﬁnds to be . . . not in accordance with
law.” Id. § 7292(d)(1)(A).
I
On appeal Mrs. Garvey does not dispute that Mr.
Garvey was discharged for willful and persistent misconduct, or that this rendered him ineligible for beneﬁts under the regulation, but renews her argument
that the “willful and persistent misconduct” bar is contrary to statute.

App. 6
We have previously upheld the regulation in a
two-paragraph non-precedential decision that affirmed
the Veterans Court. Camarena v. Brown, 60 F.3d 843
(Fed. Cir. 1995). We now address the issue in a precedential decision.
We begin with a summary of the relevant statutes
and regulations. For purposes of eligibility for veterans’ beneﬁts, section 101(2) deﬁnes a “veteran” as “a
person who served in the active military, naval, or air
service, and who was discharged or released therefrom
under conditions other than dishonorable.” 38 U.S.C.
§ 101(2). Section 5303(a) lists several situations, such
as discharge due to general court-martial or desertion,
in which a former servicemember is barred from receiving veterans’ beneﬁts.3 Section 5303 does not list
3

Speciﬁcally, section 5303(a) provides that:
The discharge or dismissal [1] by reason of the sentence of a general court-martial of any person from
the Armed Forces, or the discharge of any such person
[2] on the ground that such person was a conscientious
objector who refused to perform military duty or refused to wear the uniform or otherwise to comply with
lawful orders of competent military authority, or [3] as
a deserter, or [4] on the basis of an absence without authority from active duty for a continuous period of at
least one hundred and eighty days if such person was
discharged under conditions other than honorable unless such person demonstrates to the satisfaction of the
Secretary that there are compelling circumstances to
warrant such prolonged unauthorized absence, or [5] of
an ofﬁcer by the acceptance of such ofﬁcer’s resignation
for the good of the service, or [6] (except as provided in
subsection (c)) the discharge of any individual during a
period of hostilities as an alien, shall bar all rights of

App. 7
“willful and persistent misconduct” as one of its statutory bars.
Sections 101 and 5303 are implemented in 38
C.F.R. § 3.12. As relevant here, Rule 3.12(c) provides
that “[b]eneﬁts are not payable” under speciﬁed conditions. These include those listed in section 5303(a).4
Mirroring the “conditions other than dishonorable”

such person under laws administered by the Secretary
[of the VA]. . . .
38 U.S.C. § 5303(a).
4
Section 3.12(c) states that:
Beneﬁts are not payable where the former service
member was discharged or released under one of the
following conditions:
(1) As a conscientious objector who refused
to perform military duty, wear the uniform,
or comply with lawful order of competent
military authorities.
(2) By reason of the sentence of a general
court-martial.
(3) Resignation by an ofﬁcer for the good of
the service.
(4) As a deserter.
(5) As an alien during a period of hostilities, where it is afﬁrmatively shown that the
former service member requested his or her
release. See § 3.7(b).
(6) By reason of a discharge under other
than honorable conditions issued as a result
of an absence without ofﬁcial leave (AWOL)
for a continuous period of at least 180
days. . . .
38 C.F.R. § 3.12(c).

App. 8
language of section 101(2), Rule 3.12(a) provides
that:
If the former service member did not die in
service, pension, compensation, or dependency and indemnity compensation is not payable unless the period of service on which the
claim is based was terminated by discharge
or release under conditions other than dishonorable. (38 U.S.C. 101(2)). A discharge under
honorable conditions is binding on the [VA] as
to character of discharge.
38 C.F.R § 3.12(a) (emphasis added). Rule 3.12(d) further deﬁnes “dishonorable conditions,” providing that:
A discharge or release because of one of the
offenses speciﬁed in this paragraph is considered to have been issued under dishonorable
conditions. . . .
(4) Willful and persistent misconduct. This includes a discharge under
other than honorable conditions, if it
is determined that it was issued because of willful and persistent misconduct. A discharge because of a
minor offense will not, however, be
considered willful and persistent
misconduct if service was otherwise
honest, faithful and meritorious.
Id. § 3.12(d) (emphasis added).
Every servicemember is assigned a status—Honorable, Dishonorable, or an intermediate status—upon
discharge. Under Rule 3.12, a former servicemember’s

App. 9
discharge status might be, but is not necessarily, determinative of eligibility for beneﬁts. A servicemember
with an Honorable discharge is eligible for benefits
because a discharge “under honorable conditions”
is “binding” on the VA as to beneﬁts eligibility. Id.
§ 3.12(a). A servicemember with a Dishonorable discharge is ineligible for beneﬁts because a Dishonorable
discharge is a discharge by sentence of a general courtmartial—a bar to benefits under Rule 3.12(c)(2). A
former servicemember’s discharge status is not determinative, however, when it is neither “under honorable
conditions” nor Dishonorable. The military has issued
several types of discharges of this sort over the years,
including Undesirable, Ordinary, and Without Honor
discharges. Bradford Adams & Dana Montalto, With
Malice Toward None: Revisiting the Historical and
Legal Basis for Excluding Veterans from “Veteran”
Services, 122 Penn. St. L. Rev. 69, 80 (2017). For servicemembers discharged with one of these intermediate statuses, the character of their service governs. The
VA deems servicemembers with an intermediate discharge status who were discharged for “willful and persistent misconduct” to have been discharged under
“dishonorable conditions,” rendering them ineligible
for veterans’ beneﬁts.5 See 38 U.S.C. § 3.12(d)(4).

5

Discharges for “[m]utiny,” “spying,” and “[a]cceptance of an
undesirable discharge to escape trial by general court-martial”
are also deemed by the VA to “have been issued under dishonorable conditions.” 38 C.F.R. § 3.12(d).

App. 10
II
Mrs. Garvey contends that the “willful and persistent misconduct” bar in Rule 3.12(d) is contrary to statute. Mrs. Garvey argues that because section 5303(a)
speciﬁes six conditions under which a former servicemember is ineligible for beneﬁts, it was improper for
the VA to add a seventh, unlisted “willful and persistent misconduct” bar. We disagree.
Neither section 5303 nor any other statute provides that section 5303 contains the exclusive list of
conditions for beneﬁts eligibility. On the contrary, the
deﬁnition of “veteran” in section 101(2) expressly limits beneﬁts to those discharged “under conditions other
than dishonorable.” 38 U.S.C. § 101(2). The central
question here is the meaning of this language in section 101(2).
In section 101(2), Congress chose not to use a “Dishonorable discharge” bar. Instead, it used the phrase
“conditions other than dishonorable.” Unlike a Dishonorable discharge, the phrase “conditions other than
dishonorable” is not a term of art in the military.6 In
view of the ambiguity of that phrase, we turn to the
statute’s legislative history to determine its meaning.
Adm’r, Fed. Aviation Admin. v. Robertson, 422 U.S. 255,
6

There is a statement in the Senate ﬂoor debate on the provision now present in section 101(2) that the phrase “conditions
other than dishonorable” was “well-understood,” 90 Cong. Rec.
3077 (1944), but this appears only to suggest that the core concept
was well understood, not that the full scope of the term was well
understood. Indeed, as described below, Congress left it to the VA
to deﬁne the term by regulation.

App. 11
263 (1975) (reasoning that an “unclear and ambiguous”
statute “compell[ed] resort to the legislative history”).
Section 5303 and the “conditions other than dishonorable” requirement of section 101(2) trace their
origin to the Servicemen’s Readjustment Act of 1944
(“the G.I. Bill”). Pub. L. No. 78-346, 58 Stat. 284; see
generally Adams & Montalto, supra, at 84-85. The G.I.
Bill provided a variety of educational, ﬁnancial, and
other beneﬁts to former servicemembers. However, not
all former servicemembers would be eligible. In the
version of the G.I. Bill ﬁrst introduced in Congress, section 300 barred the provision of beneﬁts to servicemembers discharged for any of several enumerated
reasons, including discharge: (1) by sentence of a courtmartial (e.g., a Dishonorable discharge); (2) for being a
conscientious objector; (3) as a deserter; or (4) of an ofﬁcer by resignation for the good of the service. S. 1767,
78th Cong. § 300 (as introduced, Mar. 13, 1944).7

7

Speciﬁcally, as relevant here, section 300 stated that:
The discharge or dismissal by reason of the sentence of
a general court-martial of any person from the military
or naval forces, or the discharge of any such person on
the ground that he was a conscientious objector who
refused to perform military duty or refused to wear the
uniform or otherwise to comply with lawful orders of a
competent military authority, or as a deserter, or of an
ofﬁcer by the acceptance of his resignation for the good
of the service, shall bar all rights of such person, based
upon the period of service from which he is so discharged or dismissed, under any laws administered by
the [VA]. . . .
S. 1767, 78th Cong. § 300 (as introduced, Mar. 13, 1944).

App. 12
The Senate committee amended the bill to add a
new section, section 1603, while retaining the statutory bars in section 300. New section 1603 provided
that:
A discharge or release from active service under conditions other than dishonorable shall
be a prerequisite to entitlement to veterans’
beneﬁts provided by this [A]ct. . . .
S. 1767 § 1603 (as reported to the Senate, Mar. 18,
1944). The committee report explained the dual purposes of this provision: to provide beneﬁts to deserving
servicemembers with “honest and faithful or otherwise
meritorious” service even if they did not receive Honorable discharges, but to deny beneﬁts to “unworthy”
former servicemembers even if they were not given a
Dishonorable discharge. S. Rep. No. 78-755, at 15
(1944). Speciﬁcally, the report explained:
The purpose of this section is to provide a uniform basic entitlement contingent upon the
type of release from active military or naval
service. It provides that in order to be entitled
to any veterans’ beneﬁts provided by this act
. . . a veteran must have been discharged or
released from active service under conditions
other than dishonorable. . . . The amendment
would remove a discrepancy in existing law
which has been found to be highly undesirable, . . . relating to hospitalization whereby a
veteran not dishonorably discharged may be
entitled to hospitalization beneﬁts. In practice
it has been found that this permits most unworthy cases to be hospitalized often to the

App. 13
detriment of persons honorably discharged or
discharged under conditions other than dishonorable. It is believed that the hospital facilities of the Veterans’ Administration should
be maintained for veterans whose service was
honest and faithful or otherwise meritorious.
Further, the amendment will correct hardships under existing laws requiring honorable discharge as prerequisite to entitlement.
Many persons who have served faithfully and
even with distinction are released from the
service for relatively minor offenses, receiving
a so-called blue discharge if in the Army or a
similar discharge without honor if in the
Navy. It is the opinion of the committee that
such discharge should not bar entitlement
to benefits otherwise bestowed unless the
offense was such, as for example those mentioned in section 300 of the bill, as to constitute dishonorable conditions. A dishonorable
discharge is effected only as a sentence of
court martial, but in some cases offenders are
released or permitted to resign without trial—
particularly in the case of desertion without
immediate apprehension. In such cases beneﬁts should not be afforded as the conditions
are not less serious than those giving occasion
to dishonorable discharge by court martial.
Id. (emphasis added).
The committee’s amendment was agreed to on the
Senate floor. 90 Cong. Rec. 3075 (1944). There, the

App. 14
sponsor of the G.I. Bill,8 Senator Champ Clark, similarly explained the purpose of the “conditions other
than dishonorable” standard on the Senate ﬂoor where
the committee amendment was adopted. He reasoned
that a person with poor conduct in the service might
nevertheless be discharged without a court-martial
because the military “did not want to take the trouble
to court martial them and give them what they deserved—a dishonorable discharge.” See 90 Cong. Rec.
3077. To Senator Clark, such a servicemember should
not receive beneﬁts. Senator Clark stated that the
“conditions other than dishonorable” language meant
that:
if a man’s service has been dishonorable, if he
has been convicted of larceny or any other
crime or has been convicted of chronic drunkenness or anything else one might think of,
the [VA] will have some discretion with respect to regarding the discharge from the service as dishonorable.
Id. (emphasis added).9 The House of Representatives
version of the G.I. Bill would have restricted beneﬁts
8

“It is the sponsors that we look to when the meaning of the
statutory words is in doubt.” Edward J. DeBartolo Corp. v. Fla.
Gulf Coast Bldg. & Constr. Trades Council, 485 U.S. 568, 585
(1988) (quoting N.L.R.B. v. Fruit & Vegetable Packers & Warehousemen, Local 760, 377 U.S. 58, 66 (1964)).
9
In the same vein, a later report of the President’s Commission on Veterans’ Pensions, chaired by General Omar Bradley
(VA Administrator from 1945 to 1947), explained that:
The Congress did not want to use the words “honorably
discharged” or “discharged under honorable conditions,”
because it was felt that such an eligibility requirement

App. 15
to those discharged “under honorable conditions.” S.
1767 § 1503 (as passed by the House, May 18, 1944).
However, on the recommendation of the conference
committee, both houses ultimately adopted the Senate’s “conditions other than dishonorable” standard.
H.R. Rep. No. 78-1624, at 26 (1944); 90 Cong. Rec. 5754
(June 12, 1944); 90 Cong. Rec. 5847 (June 13, 1944).
The G.I. Bill was thus enacted with the section 300
bars and the “conditions other than dishonorable” requirement.
In enacting the G.I. Bill, Congress intended for
beneﬁts to be provided to former servicemembers
“whose service was honest and faithful or otherwise
meritorious,” even if they were not discharged with
Honorable status. S. Rep. No. 78-755, at 15. However,
beneﬁts were not to be provided to former servicemembers whose misconduct was “not less serious than
those giving occasion to dishonorable discharge by
court-martial,” even if they did not receive a Dishonorable discharge. Id. Congress provided the VA with
was too restrictive. Neither did Congress want to use
the words “not dishonorably discharged” because such
words would have been too broad and opened the door
to persons who were administratively discharged for
conduct that was in fact dishonorable. The controversy
was ﬁnally resolved by adopting the words “conditions
other than dishonorable.”. . . . The eligibility of persons
discharged with [neither Honorable nor Dishonorable]
discharges was left to a determination by the [VA]
based on the pertinent facts. . . .
President’s Comm’n on Veterans’ Pensions, Staff of H. Comm. on
Veterans’ Affairs, 84th Cong., Rep. On Discharge Requirements
for Veterans’ Beneﬁts 15-16 (Comm. Print 1956).

App. 16
“discretion,” 90 Cong. Rec. 3077, in determining the
“conditions” under which a former servicemember was
“[ ] worthy” of beneﬁts, S. Rep. No. 78-755, at 15. Congress did not intend the speciﬁc provisions of section
300 to be the sole bar to veterans’ beneﬁts.
Though the section 300 bars are now codiﬁed at
38 U.S.C. § 5303(a)10 and the “conditions other than
dishonorable” requirement is codified at 38 U.S.C.
§ 101(2),11 the meaning of and relationship between
these statutory provisions have not materially changed
since the G.I. Bill’s enactment in 1944. Whether the
statute is interpreted to expressly delegate to the VA
the interpretation of “conditions other than dishonorable,” or instead the delegation is implicit, we conclude
that the VA has authority to deﬁne the term consistent
with the Congressional purpose. Chevron, U.S.A., Inc.
10

In a 1958 reorganization of veterans’ beneﬁts statutes, section 300 was codiﬁed at 38 U.S.C. § 3103(a). Pub. L. No. 85-857
§ 3103, 72 Stat. 1105, 1230 (1958). In 1991, section 3103 was renumbered as 5303. Pub. L. No. 102-40, Title IV, § 402(b)(1), 105
Stat. 187, 238-39 (1991).
11
Section 606 of the House version of the 1944 G.I. Bill provided that “[t]he term ‘veteran’ as used in this title shall mean a
person who served in the active service of the armed forces during
a period of war in which the United States has been or is engaged
and who has been discharged or released therefrom under honorable conditions.” S. 1767 § 606 (as passed by the House, May 18,
1944). At conference committee, section 606 was moved to section
607 and revised to use the “under conditions other than dishonorable” standard. H.R. Rep. No. 78-1624, at 13. Section 607 was part
of the enacted G.I. Bill. G.I. Bill § 607. The current deﬁnition of
“veteran,” codiﬁed at 38 U.S.C. § 101, derives from section 607
and was enacted in the 1958 reorganization of veterans’ beneﬁts
statutes. Pub. L. 858-57 § 101, 72 Stat. at 1106.

App. 17
v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 (1984)
(discussing “express delegation” and “implicit” delegation of an interpretive question to an agency).
Since 1946, VA regulations have provided that a
discharge for “willful and persistent misconduct” was
under “dishonorable conditions,” and thus was a bar to
beneﬁts. 11 Fed. Reg. 12,869, 12,878 (Oct. 31, 1946).
The bar has existed in its current form—codiﬁed at 38
C.F.R. § 3.12(d)(4)—since 1963. 28 Fed. Reg. 123 (Jan.
4, 1963). The “willful and persistent misconduct” bar is
consistent with the statute in denying beneﬁts to those
who committed serious misconduct even if they did not
receive a Dishonorable discharge.
Our conclusion is further supported by Congress’
1977 amendment to what is now section 5303. On
April 5, 1977, President Carter initiated the Special
Discharge Review Program. Under the Program, as
relevant here, a Vietnam-era servicemember with a
discharge “Under Other than Honorable Conditions”
could obtain an upgrade to a “general discharge under
honorable conditions” if a Discharge Review Board
found that “such action is appropriate based on all of
the circumstances of a particular case and on the quality of the individual’s civilian records since discharge.”
Discharge Review Boards, 42 Fed. Reg. 21,308, 21,310
(Apr. 26, 1977).12 Because Rule 3.12(a) provides that
“[a] discharge under honorable conditions is binding on
12

Mr. Garvey’s upgrade to an “Under Honorable Conditions
(General)” discharge status was under the Special Discharge Review Program.

App. 18
the [VA] as to character of discharge,” some servicemembers who were ineligible for beneﬁts (due, for example, to the “willful and persistent misconduct” bar),
would become eligible because of their upgrade under
the Program.
Congress concluded that this aspect of the Program was unfair because it upgraded Vietnam-era
servicemembers but not other servicemembers, and
because it unfairly allowed those with problematic service records to obtain veterans beneﬁts. S. Rep. No. 95305, at 3 (1977); 123 Cong. Rec. 28,193, 28,198 (Sep. 8,
1977). Because of these concerns, in 1977, Congress
passed an “Act to deny entitlement to veterans’ beneﬁts to certain persons who would otherwise become so
entitled solely by virtue of the administrative upgrading under” the Program. Pub. L. No. 95-126, 91 Stat.
1106 (“the 1977 Act”). The 1977 Act provided, in relevant part, that servicemembers upgraded to “a general
or honorable discharge” under the Program were ineligible for veterans benefits unless, after a case-bycase review by a Discharge Review Board, the VA
determined that the veteran would have received the
upgraded discharge status even under generally applicable standards. Id.13

13

More speciﬁcally, the 1977 Act’s exclusion is now codiﬁed
at 38 U.S.C. § 5303(e)(2), which provides:
Notwithstanding any other provision of law . . . no person discharged or released from active military, naval,
or air service under other than honorable conditions
who has been awarded a general or honorable discharge under revised standards for the review of

App. 19
The structure and purpose of the 1977 Act support
the “willful and persistent misconduct” bar. The Act
presupposes that a servicemember discharged under
less than honorable conditions would, but for his or her
upgrade under the Program, not have been eligible for
beneﬁts in at least some circumstances. At the time,
the “willful and persistent misconduct” bar had been in
force for over three decades. See 11 Fed. Reg. at 12,878
(amending regulation to add the “willful and persistent
misconduct” bar). And Congress was well aware that if
the servicemember had been discharged for “willful
and persistent misconduct” he or she would not be not
entitled to veterans’ beneﬁts. See, e.g., S. Rep. No. 95305, at 27 (quoting 38 C.F.R. § 3.12 (1977)); H.R. Rep.
No. 95-580, at 9 (same); Eligibility for Veterans’ Beneﬁts Pursuant to Discharge Upgradings: Hearing Before
the Committee on Veterans’ Affairs, 95th Cong. 354-55
(1977) (statement of Sen. Thurmond) (same). That
Congress required an upgraded servicemember to remain subject to the VA’s rules under his or her original
discharge status (absent a speciﬁc dispensation) suggests approval of those rules, including the “willful and
persistent misconduct” bar.

discharges . . . as implemented on or after April 5,
1977, under the Department of Defense’s special discharge review program . . . , shall be entitled to beneﬁts
under laws administered by the Secretary except upon
a determination, based on a case-by-case review, under
[uniform and historically consistent] standards . . .
that such person would be awarded an upgraded discharge under such standards.

App. 20
We reject Mrs. Garvey’s challenge to the “willful
and persistent misconduct” regulatory bar.
CONCLUSION
We uphold the VA’s interpretation that a discharge
for “willful and persistent misconduct” is, under the
statute, “issued under dishonorable conditions.” See 38
C.F.R. § 3.12(d). Mr. Garvey’s discharge was for willful
and persistent misconduct, so Mrs. Garvey is not entitled to veterans’ beneﬁts. The decision of the Veterans
Court is
AFFIRMED

App. 21
APPENDIX B
Designated for electronic publication only
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 18-5059
DIANA GARVEY, APPELLANT,
v.
SECRETARY

ROBERT L. WILKIE,
OF VETERANS AFFAIRS, APPELLEE

Before DAVIS, Chief Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
DAVIS, Chief Judge: Diana Garvey is the surviving spouse of the late John P. Garvey, who served in the
U.S. Army from February 1966 to May 1970 before receiving a discharge under conditions other than honorable. Mr. Garvey died in August 2010. Mrs. Garvey now
appeals an August 28, 2018, Board of Veterans’ Appeals decision that denied entitlement to VA death
beneﬁts because the Board determined that Mr. Garvey’s discharge was due to willful and persistent misconduct and thus served as a bar to beneﬁts. Because
the Board did not err when it determined that the
character of Mr. Garvey’s discharge served as a bar to
Mrs. Garvey’s claim, the Court will afﬁrm the Board’s
decision.

App. 22
I.

ANALYSIS

To be eligible for VA beneﬁts, a service member
must be a “veteran,” deﬁned by Congress as “a person
who served in the active military, naval, or air service,
and who was discharged or released therefrom under
conditions other than dishonorable.”1 In addition to
this general requirement, Congress has imposed additional bars to the receipt of beneﬁts for any individual
who was (1) discharged or dismissed by reason of the
sentence of a general court martial; (2) discharged as a
conscientious objector who refused to perform military
duty; (3) a deserter; (4) absent without leave for more
than 180 days; (5) an ofﬁcer who resigned for the good
of the service; or (6) discharged during a period of hostilities as an alien.2 VA regulations further provide
that a discharge or release under several additional
circumstances, including a discharge due to willful and
persistent misconduct, “is considered to have been issued under dishonorable conditions.3
Mrs. Garvey presents two arguments on appeal.
First, she contends that VA was without authority to
promulgate its “willful and persistent misconduct” regulation, asserting that Congress speciﬁcally limited
the circumstances that would result in a bar to beneﬁts
to those enumerated in section 5303(a). Second, she argues that the Board’s determination that Mr. Garvey’s
discharge was due to willful and persistent misconduct
1
2
3

38 U.S.C. § 101(2).
38 U.S.C. § 5303(a).
38 C.F.R. § 3.12 (2019).

App. 23
was arbitrary and capricious, because that standard is
not listed in section 5303(a). She does not otherwise
challenge the Board’s decision or its ﬁndings.
In Camarena v. Brown,4 the Court considered arguments nearly identical to those made by Mrs. Garvey and held that § 3.12(d) was valid. Mrs. Carrera
recognizes the binding effect of Camarena, but she contends that “the courts probably made a mistake when
they ruled on this case,”5 because neither this Court
nor the U.S. Court of Appeals for the Federal Circuit
cited Chevron, U.S.A., Inc. v. Natural Resources Defense
Counsel, Inc. (“Chevron”)6 in its analysis. Speciﬁcally,
she asserts that the Court did not properly consider
whether section 5303 was ambiguous and whether
Congress intended the list of bars to beneﬁts in section
5303(a) to be exhaustive.
But although the Court in Camarena did not speciﬁcally cite Chevron, it did consider these issues. After
examining the plain meaning and legislative history of
section 5303, the Court held that
there is simply nothing in [section 5303], nor in
the overall statutory scheme encompassed by
either title 38 of the U.S. Code (Veteran’s Benefits) or title 10 (Armed Services), that would
suggest that the definition of “veteran” was to

4
5
6

6 Vet.App. 565 (1994), aff ’d, 60 F.3d 843 (Fed. Cir. 1995).
Appellant’s Brief at 7.
67 U.S. 837 (1984).

App. 24
be entirely removed from the rulemaking
power of the Secretary of Veterans Affairs.[7]
The Court concluded that, “[w]hether a ‘plain
meaning’ or congressional intent analysis is used, it is
abundantly clear that Congress did not say or intend
to say that only those receiving ‘dishonorable discharges’ would be denied veteran status. We ﬁnd the
regulation valid.”8
Mrs. Garvey has not convinced the Court that
reconsideration of Camarena is warranted or that
§ 3.12(d) is invalid. And because her second argument
is premised on her ﬁrst, she has provided no grounds
to set aside the Board’s decision.9 The Court will, accordingly, afﬁrm the Board’s decision.
II.

CONCLUSION

On consideration of the foregoing, the Court AFFIRMS the Board’s August 28, 2018, decision.
DATED: September 30, 2019
Copies to:
Robert C. Brown, Jr., Esq.
VA General Counsel (027)
7

Camarena, 6 Vet.App. at 567.
Id. at 568.
9
See Hilkert v. West, 12 Vet.App. 145, 151 (1999) (en banc)
(“An appellant bears the burden of persuasion on appeals to this
Court.”), aff ’d per curiam, 232 F.3d 908 (Fed. Cir. 2000) (table);
8

App. 25
APPENDIX C
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
[SEAL]
IN THE APPEAL OF
DIANA GARVEY
Docket No. 13-18 662A
IN THE CASE OF
JOHN P. GARVEY
REPRESENTED BY
Robert C. Brown, Attorney
DATE:

August 28, 2018
ORDER

As the character of the service member’s discharge is a bar to his surviving spouse’s eligibility for VA death beneﬁts, to include Dependency
and Indemnity Compensation (DIC) beneﬁts and
nonservice-connected death pension beneﬁts,
the appeal is denied.

FINDINGS OF FACT
1. During his active service, the service member was
the subject of one Article 15 punishment and was convicted of four offenses at four separate special courts
martial, and he was discharged from service under
conditions other than honorable.
2. Due to his willful and persistent misconduct, the
service member’s discharge is considered dishonorable

App. 26
for VA purposes, and the most probative competent evidence of record establishes that he was not insane at
the time of his in-service willful and persistent misconduct.
CONCLUSION OF LAW
The character of the service member’s discharge is under dishonorable conditions and constitutes a bar to
the receipt of VA death beneﬁts. 38 U.S.C. §§ 101, 1310,
1541, 5107 5303; 38 C.F.R. §§ 3.1, 3.3, 3.12, 3.102,
3.312, 3.354.
REASONS AND BASES FOR
FINDINGS AND CONCLUSION
The service member served on active duty from February 1966 to May 1970. Because he does not have the
status of a veteran for VA beneﬁts purposes, the Board
shall refer to him as “the service member” throughout
this decision. He was discharged from service “Under
Conditions Other Than Honorable.” He died in August
2010, and the appellant is his surviving spouse.
This matter ﬁrst came before the Board of Veterans’
Appeals (Board) on appeal from a November 2012 decision.
In June 2104, the appellant testiﬁed at a Board hearing.
The Board denied this appeal in a March 2016 decision. The appellant appealed the Board’s decision to

App. 27
the United States Court of Appeals for Veterans
Claims (Court), which issued a memorandum decision
in April 2017 vacating the Board’s decision and remanding the matter for action consistent with the
Court’s decision.
The Board has limited the discussion below to the relevant evidence required to support its ﬁnding of fact
and conclusion of law, as well as to the speciﬁc contentions regarding the case as raised directly by the appellant and those reasonably raised by the record. See
Scott v. McDonald, 789 F.3d 1375, 1381 (Fed. Cir. 2015);
Robinson v. Peake, 21 Vet. App. 545, 552 (2008).
Whether the character of the service member’s
discharge is a bar to his surviving spouse’s eligibility for VA death beneﬁts.
A.

Applicable Law

The appellant ﬁled a claim for both DIC beneﬁts and
nonservice-connected death pension beneﬁts in September 2012. A necessary prerequisite for eligibility for
these beneﬁts is the underlying veteran status of the
appellant’s deceased husband. See 38 U.S.C. § 1310; 38
C.F.R. § 3.312 (providing the requirements for DIC
beneﬁts), and 38 U.S.C. § 1541; 38 C.F.R. § 3.3 (providing the requirements for nonservice-connected death
pension beneﬁts).
For both of these beneﬁts, the term “veteran” means a
person who served in the active military, naval, or air
service, and who was discharged or released therefrom

App. 28
under conditions other than dishonorable. 38 U.S.C.
§ 101(2); 38 C.F.R. § 3.1.
There are two types of character of discharge bars to
establishing entitlement for VA beneﬁts: statutory
bars found at 38 U.S.C. § 5303 (a) and 38 C.F.R.
§ 3.12(c), and regulatory bars listed in 38 C.F.R.
§ 3.12(d).
The statutory bars under 38 U.S.C. § 5303 (a) and codiﬁed at 38 C.F.R. § 3.12(c) are not applicable in this
case. The regulatory bars under 38 C.F.R. § 3.12(d)
state that a discharge is considered to have been issued
under dishonorable conditions for numerous offenses,
including willful and persistent misconduct. Speciﬁcally, the regulation states that “a discharge under
other than honorable conditions” will be considered
dishonorable “if it is determined that it was issued because of willful and persistent misconduct.” 38 C.F.R.
§ 3.12(d)(4).
A discharge because of a minor offense will not be
considered willful and persistent misconduct if the
appellant’s service was otherwise honest, faithful, and
meritorious. Id. A discharge or release from service under either the statutory or regulatory bars is a bar to
the payment of beneﬁts unless it is found that the person was insane at the time of committing the offense.
38 C.F.R. § 3.12(b).
VA’s deﬁnition of insanity is set forth in 38 C.F.R.
§ 3.354(a) and does not necessarily have the common
components of insanity deﬁnitions used in criminal

App. 29
cases. See Gardner v. Shinseki, 22 Vet. App. 415, 41921 (2009). VA’s deﬁnition states:
An insane person is one (1) who, while not
mentally defective or constitutionally psychopathic, except when a psychosis has been engrafted upon such basic condition, exhibits,
due to disease, a more or less prolonged deviation from his normal method of behavior; or
(2) who interferes with the peace of society; or
(3) who has so departed (become antisocial)
from the accepted standards of the community to which by birth and education he belongs as to lack the adaptability to make
further adjustment to the social customs of
the community in which he resides. 38 C.F.R.
§ 3.354 (a).
The phrase “due to disease” applies to all three circumstances of the insanity deﬁnition. Zang v. Brown, 8 Vet.
App. 246, 253 (1995). Although insanity need not be
causally connected to the misconduct that led to the
discharge, it must be concurrent with that misconduct
and requires competent medical evidence to establish
a diagnosis. See Beck v. West, 13 Vet. App. 535, 539
(2000). The question (and only relevant timeframe) is
whether the claimant was insane at the time he committed the offense. Gardner, 22 Vet. App. at 420-21.
B.

Discussion

In this case, the question for the Board is whether the
service member met VA’s deﬁnition of insanity at the
time of his in-service offenses.

App. 30
The service member served on active duty from February 1966 to May 1970. During that time, he received
numerous punishments for misconduct. In January
1967, he was involved in an incident with a German
taxi driver, which resulted in a charge of disorderly
conduct and forfeiture of $25 in pay. In April 1968, he
was arrested in Vietnam with 4 pounds of marijuana.
He was charged with possession of marijuana and intent to sell marijuana; he was convicted and sentenced
to 90 days of conﬁnement.
Overall, he was convicted of four separate offenses at
four separate courts martial. In June 1968, he was
convicted of possession of 4 pounds of marijuana. He
was sentenced to 3 months of conﬁnement, ordered to
forfeit a portion of his pay, and reduced in rank. In November 1968, he was found to have been absent without leave (AWOL) from September 9, 1968, until
October 1, 1968. He was given a suspended sentence of
conﬁnement and ordered to forfeit a portion of his pay.
In June 1969, he was again convicted of having been
AWOL from April 18, 1969 to June 5, 1969. He was
given a suspended sentence of conﬁnement and ordered to forfeit a portion of his pay. In April 1970, he
was convicted of having been AWOL from February 16,
1970 to April 1, 1970. He was sentenced to 5 months of
conﬁnement and forfeited a portion of his pay.
In April 1970, an Army chaplain determined that the
service member was not amenable to rehabilitation,
and he recommended that service member be discharged from the Army. At a separate April 1970 psychiatric evaluation, two Army physicians stated that

App. 31
service member “was and is mentally responsible to
distinguish right from wrong and adhere to the right.”
They also noted that the service member had no disqualifying mental or physical disease or defect sufﬁcient to warrant discharge through medical channels.
A May 1970 separation document noted the service
member’s four convictions, and found that he had approximately 181 days of bad time due to his multiple
periods of absences and confinement. In May 1970,
the service member was notified that he was to be
discharged as unﬁt for service. The service member
waived consideration of his case before a board of ofﬁcers or for a personal appearance. He acknowledged
that, because of the terms of his discharge, he “may be
ineligible for many or all beneﬁts as a veteran under
both Federal and State laws.” He was terminated from
service under “Other Than Honorable Conditions.”
In April 1977, the service member sought an upgrade
of his discharge from the “DOD Discharge Review Program (Special).” In June 1977, that panel upgraded the
service member’s discharge to “Under Honorable Conditions (General).” The service member was issued a
new DD-214 reﬂecting this change. Subsequently, however, in 1978, the Army’s Discharge Review Board
voted to not afﬁrm the service member’s upgraded discharge, ﬁnding that the under other than honorable
conditions discharge was consistent with the standards of the Army at the time of his discharge, and noting that the service member had 186 days of time lost.

App. 32
At present, the character of his service remains, absent
evidence of insanity, a bar to his (and now his spouse’s)
receipt of VA beneﬁts. See 38 C.F.R. § 3.312(d)(4). The
only way to rebut his current discharge is through a
showing that he was insane at the time of his offenses.
There were initially differing medical opinions as to
this question.
In a September 2006 letter, W.R.R., MD, wrote that the
service member suffered from PTSD, and that his
“symptoms began while he was in Vietnam and started
after the severe rocket attack at Camp Eagle in March
1968.” Dr. W.R.R. went on to state that the service
member’s “PTSD symptoms started before he was discharged from the Army.” Dr. W.R.R. did not, however,
address the question of whether the service member
was insane at the time of his in-service offenses.
The service member, during his lifetime, underwent a
VA examination in August 2008. The examiner determined that the service member’s actions were “characterized by a prolonged period of deviation from his
normal behavior.” The examiner stated that the service
member was “clearly not functioning according to the
accepted standards of the community to which he belonged by birth and education.” The examiner therefore concluded that it is at least as likely as not that,
as it pertains to the service member’s offenses in 1970
“and in the year or so before and after, was functioning
in a way that ﬁts the deﬁnition of insanity.” The examiner did not, however, directly address the service
member’s earlier incidents in 1967 and 1968.

App. 33
In contrast, an April 1970 in-service psychiatric evaluation determined that the service member “was and is
mentally responsible to distinguish right from wrong
and adhere to the right.” That evaluation also noted
that the service member had “ no disqualifying mental
or physical disease or defect sufﬁcient to warrant discharge.”
Additionally, a prior Veterans Health Administration
(VHA) medical opinion was obtained from a psychiatrist in August 2015, which is in the record. However,
it was deemed not adequate.
Speciﬁcally, this matter was previously appealed to the
Court, which determined in the April 2017 memorandum decision, that a new medical opinion was needed
because the prior evidence did not explain whether the
service member’s behavior was potentially aggravated
by his later diagnosis of PTSD, thereby contributing to
his in-service offenses. Moreover, according to the
Court, the evidence did not explain whether his preexisting antisocial behavior possibly contributed to his
inability to conform his conduct to community standards when he committed the in-service offenses. This
was especially concerning to the Court given that VA’s
deﬁnition of “insanity” speciﬁcally includes those who
have become antisocial.
Accordingly, the Board referred the matter to VHA for
a second expert medical opinion. The Board asked two
questions: (1) whether it is at least as likely as not (i.e.,
at least equally probable) that the service member’s
antisocial features were aggravated by his later

App. 34
diagnosed PTSD, and (2) whether it is at least as likely
as not (i.e., at least equally probable) that his antisocial personality rose to the level of “insanity” at the
time of his in-service offense.
The opinion was authored in April 2018. The expert, a
VA staff psychiatrist, gave his opinion that while it is
possible that, if the service member had PTSD at the
time of his service (which was questionable according
to the VHA expert), such could have contributed to
some of the behaviors in question (which the examiner
also noted as questionable); it certainly cannot account
for all of the aforementioned behaviors. Additionally,
the expert went on, while the possible presence of
PTSD cannot adequately explain all behaviors in question, the presence of Antisocial Personality Disorder
can making it, by far, the most likely explanation. As
such, the expert concluded, it was not at least equally
probable that the service member’s antisocial features
were sufﬁciently aggravated by his later diagnosis of
PTSD.
The expert gave an extensive supporting rationale. In
brief, the expert discussed question (2) ﬁrst, starting
off by giving the DSM-5 deﬁnition of Antisocial Personality Disorder and reviewed VA’s deﬁnition of insanity.
The examiner then broke down VA’s deﬁnition and ﬁrst
focused on the “due to” clause. After explaining the distinction between organic/physiologic diseases and personality disorders, the examiner opined that there was
no evidence in the record to suggest that the service
member was suffering from a possible organic issue
to account for his behavior. The expert focused on the

App. 35
in-service psychiatric evaluation conducted in April
1970, which he found important as it was the only evaluation conducted contemporaneous with the events.
The examiner explained that since it was determined
that the service member could distinguish between
right and wrong at that time, he would then not meet
the legal deﬁnition of insanity, and would therefore be
culpable for his actions.
Next, the expert explained that there was not a prolonged deviation from the service member’s normal
method of behavior. The expert explained that one
should exhibit traits of Antisocial Personality Disorder
during childhood or adolescence, which would mean
prior to service in the instant case. The expert then
cited multiple instances in the record supporting this,
including criminal conduct prior the service member’s
entrance into service, plus the fact that he completed
only 2 years of high school. The expert found this important for several reasons, including that the pre-service pattern of behavior strongly suggested that the
speciﬁc behaviors during service were not precipitated
by service. Rather, his in-service behavior was “very
much consistent with his normal pattern of behavior.”
(Emphases in original.)
The expert next discussed the VA insanity deﬁnition
requiring a lack of adaptability to the community’s social customs. Finally, the expert examined the “ not
mentally defective or constitutionally psychopathic”
component. The expert explained that one with Antisocial Personality Disorder would be considered “psychopathic,” which would preclude the service member

App. 36
from meeting VA’s deﬁnition of insanity unless there
was a superimposed psychosis and this service member’s records gave “no indication whatsoever that at
any time (and particularly during the events in question) the [service member] was psychotic.”
The expert then summarized that because the service
member’s actions were not secondary to a disease, nor
were these behaviors a deviation from his normal pattern of behavior, nor did he truly lack the ability to adjust to the social customs of the community in which
he resided, and given the diagnosis of Antisocial Personality Disorder, he would be, by deﬁnition, considered constitutionally psychopathic, which is why the
expert concluded that he did not meet the criteria for
VA’s speciﬁc deﬁnition of insanity.
The expert then discussed his reasoning behind his
negative opinion starting with the Board’s ﬁrst question. The expert stated that while it is certainly possible that if the service member had PTSD at the time of
his service, such a diagnosis could have contributed
to some of the behaviors in question, but the preponderance of the evidence overwhelmingly suggested
that this was not probable. The examiner first deconstructed the positive opinion given by Dr. W.R.R. The
expert particularly focused on the questionable veracity of the statement the service member gave to
Dr. W.R.R., which the expert noted as the sole evidence
supporting the opinion. The expert explained that,
given the service member’s documented propensity
for changing his explanation for his in-service behavior, which was motivated by secondary gain, the

App. 37
statements given to Dr. W.R.R. should have been given
greater scrutiny. The expert then exhaustively and
carefully documented the repeated instances over the
years where the service member “changed his story in
regards to the substantive facts, as well as to assigning
an underlying explanation for his behavior.” The expert found this “overall presentation [ ] very much consistent with the hallmarks of Antisocial Personality
Disorder, rather than that of PTSD.”
The expert found it debatable whether the service
member did have PTSD at the time of any of the inservice events. He noted that some of the events occurred before the PTSD stressful events, including
prior to service. The expert then opined that although
PTSD could possibly have contributed to the service
member’s possession/use of marijuana during service,
it would not account for his attempt to sell the same.
Rather, this would be consistent with Antisocial Personality Disorder. Likewise, while the service member’s AWOLs could possibly be associated with
avoidance symptoms associated with PTSD, “the more
likely explanation is that these were simply a continuation of his antisocial behavior” when considered in the
context of all the other incidents.
The Board ﬁnds this April 2018 VHA expert’s opinion
to be the most persuasive and probative evidence in
this case because it was based on an accurate medical
history and provides an explanation that contains
clear conclusions and supporting data, and because it
addresses the concerns raised in the Court’s April 2017
memorandum decision. See Nieves-Rodriguez v. Peake,

App. 38
22 Vet. App. 295, 304 (2008). As the most probative evidence, it therefore establishes that the service member was not insane at the time of his actions leading to
his discharge.
In an August 2018 brief, the appellant’s attorney representative presented the primary contention. The attorney argued that Congress did not express an intent
for willful and persistent misconduct to be a bar to receipt of VA beneﬁts. Citing Chevron deference, the attorney argued that Congress was not ambiguous when
it enacted § 5303. Rather, VA’s addition of willful and
persistent misconduct to the list of disqualifying acts
added a seventh bar to beneﬁts. Adding this seventh
bar to beneﬁts, according to the attorney, was arbitrary
and capricious.
The attorney next argued that there is a split in the
current precedent. The attorney ﬁrst discussed Camarena v. Brown, 60 F.3d 843 (Fed. Cir. 1995) (per curiam),
which found § 3.12 valid and within VA’s rulemaking
power, including where it considered a discharge to
have been issued under dishonorable conditions if
given for willful and persistent misconduct. In contrast, the attorney next cited Garvey v. Shulkin, No. 161407 (Vet. App. April 11, 2017). In that single judge decision, the Court commented in a footnote that there
was a potential conﬂict between Camarena and Lane
v. Principi, 339 F.3d 1331, 1340-41 (Fed. Cir. 2003). The
Court “acknowledge[d] this potential conﬂict in
caselaw and the need for clariﬁcation[.]”

App. 39
Ultimately, the appellant’s attorney concluded that
there was potential agency overreach in its rulemaking thereby making the “willful and persistent misconduct” clause unenforceable.
The Board appreciates this potential conﬂict in the
Federal Circuit’s jurisprudence. Speciﬁcally, under 38
U.S.C. § 101(2), “[t]he term ‘veteran’ means a person
who served in the active military, naval, or air service,
and who was discharged or released therefrom under
conditions other than dishonorable.” Here, because the
service member here was not released under conditions other than dishonorable, the argument would be
that § 3.12 is invalid to the extent it excludes the service member as a “veteran.” In contrast, 38 U.S.C.
§ 5303 establishes certain bars to VA beneﬁts, including for those including those sentenced under a general-court martial. The Court and Federal Circuit in
Camarena afﬁrmed VA’s rulemaking authority for
§ 3.12, whereas the Court in Garvey highlighted the
potential conﬂict as to whether the promulgating authority for § 3.12 may be 38 U.S.C. § 101(2) rather than
§ 5303. If the promulgating authority is § 101(2) instead of § 5303, the addition of willful and persistent
misconduct as a bar to VA beneﬁts in § 3.12 may represent an impermissible restriction on those who may
be considered a “veteran.”
At present, the Board is without jurisdictional authority to address this potential conﬂict in the jurisprudence. In its decisions, the Board is bound by
applicable statutes, regulations of the Department of
Veterans Affairs and precedent opinions of the General

App. 40
Counsel of the Department of Veterans Affairs. 38
U.S.C. § 7104(c); 38 C.F.R. § 20.101(a). Currently, the
Federal Circuit’s decision in Camarena is binding precedent to the extent it afﬁrmed § 3.12 as valid. Thus, the
attorney sets up a legal dispute that must be resolved
by the Court and Federal Circuit.
To conclude, the Board ﬁnds that the preponderance of
the evidence shows that the Veteran’s May 1970 discharge was a result of his persistent and willful misconduct and is considered dishonorable, and that the
Veteran was not insane at the time of his offense. Thus,
the beneﬁt-of-the-doubt doctrine is not applicable. See
38 U.S.C. § 5107(b); 38 C.F.R. § 3.102. Because of this
discharge, he does not have “veteran” status for VA
beneﬁts purposes, and the appellant is barred from any
applicable VA death beneﬁts. The claim is therefore denied.
/s/ Ryan T. Kessel
RYAN T. KESSEL
Veterans Law Judge
Board of Veterans’ Appeals
ATTORNEY FOR THE BOARD

C. Bosely, Counsel

App. 41
APPENDIX D
NOTE:

This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

DIANA GARVEY,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2020-1128
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 18-5059, Senior Judge Robert N. Davis.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
-----------------------------------------------------------------------

Before PROST, Chief Judge, NEWMAN, LOURIE,
SCHALL*, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
* Circuit Judge Schall participated only in the decision on
the petition for panel rehearing.

App. 42
ORDER
Appellant Diana Garvey ﬁled a combined petition
for panel rehearing and rehearing en banc. A response
to the petition was invited by the court and filed by
Appellee Robert Wilkie The petition was referred to
the panel that heard the appeal, and thereafter the
petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December
11, 2020.
FOR THE COURT
December 4, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 43
APPENDIX E
RELEVANT STATUTES AND REGULATIONS
10 U.S.C. § 815. Art. 15. Commanding officer’s
non-judicial punishment
(a) Under such regulations as the President may
prescribe, and under such additional regulations as
may be prescribed by the Secretary concerned, limitations may be placed on the powers granted by this
article with respect to the kind and amount of punishment authorized, the categories of commanding
ofﬁcers and warrant ofﬁcers exercising command authorized to exercise those powers, the applicability of
this article to an accused who demands trial by courtmartial, and the kinds of courts-martial to which the
case may be referred upon such a demand. However,
except in the case of a member attached to or embarked in a vessel, punishment may not be imposed
upon any member of the armed forces under this article if the member has, before the imposition of such
punishment, demanded trial by court-martial in lieu
of such punishment. Under similar regulations, rules
may be prescribed with respect to the suspension of
punishments authorized hereunder. If authorized by
regulations of the Secretary concerned, a commanding
ofﬁcer exercising general court-martial jurisdiction or
an ofﬁcer of general or ﬂag rank in command may delegate his powers under this article to a principal assistant.
(b) Subject to subsection (a), any commanding
officer may, in addition to or in lieu of admonition

App. 44
or reprimand, impose one or more of the following
disciplinary punishments for minor offenses without
the intervention of a court-martial –
(1)

upon ofﬁcers of his command –

(A) restriction to certain speciﬁed limits, with or without suspension from duty, for
not more than 30 consecutive days;
(B) if imposed by an ofﬁcer exercising
general court-martial jurisdiction or an ofﬁcer
of general or ﬂag rank in command –
(i) arrest in quarters for not more
than 30 consecutive days;
(ii) forfeiture of not more than onehalf of one month’s pay per month for two
months;
(iii) restriction to certain speciﬁed
limits, with or without suspension from
duty, for not more than 60 consecutive
days;
(iv) detention of not more than onehalf of one month’s pay per month for
three months;
(2)

upon other personnel of his command –

(A) if imposed upon a person attached to
or embarked in a vessel, conﬁnement for not
more than three consecutive days;
(B) correctional custody for not more
than seven consecutive days;

App. 45
(C) forfeiture of not more than seven
days’ pay;
(D) reduction to the next inferior pay
grade, if the grade from which demoted is
within the promotion authority of the ofﬁcer
imposing the reduction or any ofﬁcer subordinate to the one who imposes the reduction;
(E) extra duties, including fatigue or
other duties, for not more than 14 consecutive
days;
(F) restriction to certain speciﬁed limits, with or without suspension from duty, for
not more than 14 consecutive days;
(G)

detention of not more than 14 days’

pay;
(H) if imposed by an ofﬁcer of the grade
of major or lieutenant commander, or above –
(i) the punishment authorized under clause (A);
(ii) correctional custody for not more
than 30 consecutive days;
(iii) forfeiture of not more than onehalf of one month’s pay per month for two
months;
(iv) reduction to the lowest or any
intermediate pay grade, if the grade from
which demoted is within the promotion
authority of the ofﬁcer imposing the reduction or any ofﬁcer subordinate to the
one who imposes the reduction, but an

App. 46
enlisted member in a pay grade above E-4
may not be reduced more than two pay
grades;
(v) extra duties, including fatigue
or other duties, for not more than 45 consecutive days;
(vi) restrictions to certain speciﬁed
limits, with or without suspension from
duty, for not more than 60 consecutive
days;
(vii) detention of not more than
one-half of one month’s pay per month for
three months.
Detention of pay shall be for a stated period of not
more than one year but if the offender’s term of service
expires earlier, the detention shall terminate upon that
expiration. No two or more of the punishments of arrest in quarters, conﬁnement, correctional custody, extra duties, and restriction may be combined to run
consecutively in the maximum amount imposable for
each. Whenever any of those punishments are combined to run consecutively, there must be an apportionment. In addition, forfeiture of pay may not be
combined with detention of pay without an apportionment. For the purposes of this subsection, “correctional
custody” is the physical restraint of a person during
duty or nonduty hours and may include extra duties,
fatigue duties, or hard labor. If practicable, correctional
custody will not be served in immediate association
with persons awaiting trial or held in conﬁnement pursuant to trial by court-martial.

App. 47
(c) An ofﬁcer in charge may impose upon enlisted
members assigned to the unit of which he is in charge
such of the punishments authorized under subsection
(b)(2)(A)-(G) as the Secretary concerned may speciﬁcally prescribe by regulation.
(d) The ofﬁcer who imposes the punishment authorized in subsection (b), or his successor in command, may, at any time, suspend probationally any
part or amount of the unexecuted punishment imposed
and may suspend probationally a reduction in grade or
a forfeiture imposed under subsection (b), whether or
not executed. In addition, he may, at any time, remit or
mitigate any part or amount of the unexecuted punishment imposed and may set aside in whole or in part
the punishment, whether executed or unexecuted, and
restore all rights, privileges, and property affected. He
may also mitigate reduction in grade to forfeiture or
detention of pay. When mitigating –
(1)

arrest in quarters to restriction;

(2)

conﬁnement to correctional custody;

(3) correctional custody or conﬁnement to
extra duties or restriction, or both; or
(4)

extra duties to restriction;

the mitigated punishment shall not be for a
greater period than the punishment mitigated. When
mitigating forfeiture of pay to detention of pay, the
amount of the detention shall not be greater than the
amount of the forfeiture. When mitigating reduction in
grade to forfeiture or detention of pay, the amount of

App. 48
the forfeiture or detention shall not be greater than the
amount that could have been imposed initially under
this article by the ofﬁcer who imposed the punishment
mitigated.
(e) A person punished under this article who considers his punishment unjust or disproportionate to
the offense may, through the proper channel, appeal
to the next superior authority. The appeal shall be
promptly forwarded and decided, but the person punished may in the meantime be required to undergo the
punishment adjudged. The superior authority may exercise the same powers with respect to the punishment
imposed as may be exercised under subsection (d) by
the ofﬁcer who imposed the punishment. Before acting
on an appeal from a punishment of –
(1)
days;

arrest in quarters for more than seven

(2)
days;

correctional custody for more than seven

(3)

forfeiture of more than seven days’ pay;

(4) reduction of one or more pay grades from
the fourth or a higher pay grade;
(5)

extra duties for more than 14 days;

(6)

restriction for more than 14 days; or

(7)

detention of more than 14 days’ pay;

the authority who is to act on the appeal shall refer the case to a judge advocate or a lawyer of the Department of Homeland Security for consideration and

App. 49
advice, and may so refer the case upon appeal from any
punishment imposed under subsection (b).
(f ) The imposition and enforcement of disciplinary punishment under this article for any act or omission is not a bar to trial by court-martial for a serious
crime or offense growing out of the same act or omission, and not properly punishable under this article;
but the fact that a disciplinary punishment has been
enforced may be shown by the accused upon trial, and
when so shown shall be considered in determining the
measure of punishment to be adjudged in the event of
a ﬁnding of guilty.
(g) The Secretary concerned may, by regulation,
prescribe the form of records to be kept of proceedings
under this article and may also prescribe that certain
categories of those proceedings shall be in writing.
*

*

*

10 U.S.C. § 822. Art. 22. Who may convene general courts-martial
(a)

General courts-martial may be convened by –
(1)

the President of the United States;

(2)

the Secretary of Defense;

(3) the commanding ofﬁcer of a uniﬁed or
speciﬁed combatant command;
(4)

the Secretary concerned;

App. 50
(5) the commanding officer of an Army Group,
an Army, an Army Corps, a division, a separate brigade, or a corresponding unit of the Army or Marine Corps;
(6) the commander of a ﬂeet; the commanding ofﬁcer of a naval station or larger shore activity of the Navy beyond the United States;
(7) the commanding ofﬁcer of an air command, an air force, an air division, or a separate
wing of the Air Force or Marine Corps;
(8) any other commanding ofﬁcer designated
by the Secretary concerned; or
(9) any other commanding ofﬁcer in any of
the armed forces when empowered by the President.
(b) If any such commanding ofﬁcer is an accuser,
the court shall be convened by superior competent authority, and may in any case be convened by such authority if considered desirable by him.
*

*

*

10 U.S.C. § 823. Art. 23. Who may convene special courts-martial
(a)

Special courts-martial may be convened by –

(1) any person who may convene a general
court-martial;
(2) the commanding ofﬁcer of a district, garrison, fort, camp, station, Air Force base, auxiliary

App. 51
air ﬁeld, or other place where members of the
Army or the Air Force are on duty;
(3) the commanding ofﬁcer of a brigade, regiment, detached battalion, or corresponding unit of
the Army;
(4) the commanding ofﬁcer of a wing, group,
or separate squadron of the Air Force;
(5) the commanding ofﬁcer of any naval or
Coast Guard vessel, shipyard, base, or station; the
commanding ofﬁcer of any Marine brigade, regiment, detached battalion, or corresponding unit;
the commanding ofﬁcer of any Marine barracks,
wing, group, separate squadron, station, base, auxiliary air ﬁeld, or other place where members of
the Marine Corps are on duty;
(6) the commanding ofﬁcer of any separate
or detached command or group of detached units
of any of the armed forces placed under a single
commander for this purpose; or
(7) the commanding ofﬁcer or ofﬁcer in
charge of any other command when empowered by
the Secretary concerned.
(b) If any such ofﬁcer is an accuser, the court
shall be convened by superior competent authority,
and may in any case be convened by such authority if
considered advisable by him.
*

*

*

App. 52
Servicemen’s Readjustment Act (1946)
TITLE I
*

*

*

CHAPTER III—REVIEWING AUTHORITY
SEC. 300. The discharge or dismissal by reason of
the sentence of a general court martial of any person
from the military or naval forces, or the discharge of
any such person on the ground that he was a conscientious objector who refused to perform military duty or
refused to wear the uniform or otherwise to comply
with lawful orders of competent military authority, or
as a deserter, or of an ofﬁcer by the acceptance of his
resignation for the good of the service, shall bar all
rights of such person, based upon the period of service
from which he is so discharged or dismissed, under any
laws administered by the Veterans’ Administration :
Provided, That in the case of any such person, if it be
established to the satisfaction of the Administrator
that at the time of the commission of the offense such
person was insane, he shall not be precluded from beneﬁts to which he is otherwise entitled under the laws
administered by the Veterans’ Administration : And
provided further, That this section shall not apply to
any war risk, Government (converted) or national service life-insurance policy.
*

*

*

App. 53
TITLE VI
CHAPTER XV—GENERAL ADMINISTRATIVE
AND PENAL PROVISIONS
*

*

*

SEC. 1503. A discharge or release from active service under conditions other than dishonorable shall be
a prerequisite to entitlement to veterans’ beneﬁts provided by this Act or Public Law Numbered 2, Seventythird Congress, as amended.
*

*

*

38 U.S.C. § 697c. Discharge or release as prerequisite to benefits (1946).
A discharge or release from active service under
conditions other than dishonorable shall be a prerequisite to entitlement to veterans’ beneﬁts provided by
this chapter or sections 701-703, 704, 105, 706, 707710, 712-715. 717, 718, 720, and 721 of this title.
*

*

*

38 U.S.C. § 101. Definitions
For the purposes of this title –
*

*

*

(2) The term “veteran” means a person who
served in the active military, naval, or air service, and

App. 54
who was discharged or released therefrom under conditions other than dishonorable.
*

*

*

38 U.S.C. § 501. Rules and regulations
(a) The Secretary has authority to prescribe all
rules and regulations which are necessary or appropriate to carry out the laws administered by the Department and are consistent with those laws, including –
(1) regulations with respect to the nature
and extent of proof and evidence and the method
of taking and furnishing them in order to establish
the right to beneﬁts under such laws;
(2) the forms of application by claimants under such laws;
(3) the methods of making investigations
and medical examinations; and
(4) the manner and form of adjudications
and awards.
*

*

*

38 U.S.C. § 1310. Deaths entitling survivors to
dependency and indemnity compensation
(a) When any veteran dies after December 31,
1956, from a service-connected or compensable disability, the Secretary shall pay dependency and

App. 55
indemnity compensation to such veteran’s surviving
spouse, children, and parents. The standards and criteria for determining whether or not a disability is service-connected shall be those applicable under chapter
11 of this title.
(b) Dependency and indemnity compensation
shall not be paid to the surviving spouse, children, or
parents of any veteran dying after December 31, 1956,
unless such veteran (1) was discharged or released under conditions other than dishonorable from the period
of active military, naval, or air service in which the disability causing such veteran’s death was incurred or
aggravated, or (2) died while in the active military, naval, or air service.
*

*

*

38 U.S.C. § 1541. Surviving spouses of veterans
of a period of war
(a) The Secretary shall pay to the surviving
spouse of each veteran of a period of war who met the
service requirements prescribed in section 1521(j) of
this title, or who at the time of death was receiving (or
entitled to receive) compensation or retirement pay for
a service-connected disability, pension at the rate prescribed by this section, as increased from time to time
under section 5312 of this title.
*

*

*

App. 56
38 U.S.C. § 5303. Certain bars to benefits
(a) The discharge or dismissal by reason of the
sentence of a general court-martial of any person from
the Armed Forces, or the discharge of any such person
on the ground that such person was a conscientious objector who refused to perform military duty or refused
to wear the uniform or otherwise to comply with lawful
orders of competent military authority, or as a deserter,
or on the basis of an absence without authority from
active duty for a continuous period of at least one hundred and eighty days if such person was discharged
under conditions other than honorable unless such
person demonstrates to the satisfaction of the Secretary that there are compelling circumstances to warrant such prolonged unauthorized absence, or of an
ofﬁcer by the acceptance of such ofﬁcer’s resignation
for the good of the service, or (except as provided in
subsection (c)) the discharge of any individual during
a period of hostilities as an alien, shall bar all rights of
such person under laws administered by the Secretary
based upon the period of service from which discharged
or dismissed, notwithstanding any action subsequent
to the date of such discharge by a board established
pursuant to section 1553 of title 10.
*

*

*

(e)(1) Notwithstanding any other provision of
law, (A) no beneﬁts under laws administered by the
Secretary shall be provided, as a result of a change in
or new issuance of a discharge under section 1553 of
title 10, except upon a case-by-case review by the board

App. 57
of review concerned, subject to review by the Secretary
concerned, under such section, of all the evidence and
factors in each case under published uniform standards (which shall be historically consistent with criteria for determining honorable service and shall not
include any criterion for automatically granting or
denying such change or issuance) and procedures generally applicable to all persons administratively discharged or released from active military, naval, or air
service under other than honorable conditions; and
(B) any such person shall be afforded an opportunity
to apply for such review under such section 1553 for a
period of time terminating not less than one year after
the date on which such uniform standards and procedures are promulgated and published.
(2)

Notwithstanding any other provision of law –

(A) no person discharged or released from
active military, naval, or air service under other
than honorable conditions who has been awarded
a general or honorable discharge under revised
standards for the review of discharges, (i) as implemented by the President’s directive of January
19, 1977, initiating further action with respect to
the President’s Proclamation 4313 of September
16, 1974, (ii) as implemented on or after April 5,
1977, under the Department of Defense’s special
discharge review program, or (iii) as implemented
subsequent to April 5, 1977, and not made applicable to all persons administratively discharged or
released from active military, naval, or air service
under other than honorable conditions, shall be
entitled to beneﬁts under laws administered by

App. 58
the Secretary except upon a determination, based
on a case-by-case review, under standards (meeting the requirements of paragraph (1) of this subsection) applied by the board of review concerned
under section 1553 of title 10, subject to review by
the Secretary concerned, that such person would
be awarded an upgraded discharge under such
standards; and
(B) such determination shall be made by
such board (i) on an expedited basis after notiﬁcation by the Department to the Secretary concerned
that such person has received, is in receipt of, or
has applied for such benefits or after a written
request is made by such person or such determination, (ii) on its own initiative before October 9,
1978, in any case where a general or honorable discharge has been awarded before October 9, 1977,
under revised standards referred to in clause
(A)(i), (ii), or (iii) of this paragraph, or (iii) on its
own initiative at the time a general or honorable
discharge is so awarded in any case where a general or honorable discharge is awarded after October 8, 1977.
If such board makes a preliminary determination
that such person would not have been awarded an upgraded discharge under standards meeting the requirements of paragraph (1) of this subsection, such person
shall be entitled to an appearance before the board, as
provided for in section 1553(c) of title 10, prior to a ﬁnal
determination on such question and shall be given
written notice by the board of such preliminary determination and of the right to such appearance. The
Secretary shall, as soon as administratively feasible,

App. 59
notify the appropriate board of review of the receipt of
beneﬁts under laws administered by the Secretary, or
of the application for such beneﬁts, by any person
awarded an upgraded discharge under revised standards referred to in clause (A)(i), (ii), or (iii) of this
paragraph with respect to whom a favorable determination has not been made under this paragraph.
*

*

*

Department of Veterans Affairs Regulation
(1946)
1064. (A) CHARACTER OF DISCHARGE UNDER
PUBLIC NO. 2, 73D CONGRESS. [AS AMENDED,
AND UNDER PUBLIC NO. 346, 78TH CONGRESS.—
To be entitled to compensation or pension under Veterans Regulation No. 1 (a), as amended, the period of active service upon which claim is based must have been
terminated by discharge or release under conditions
other than dishonorable. In other words beneﬁts under
Public No. 2, 73d Congress, and No. 346, 76th Congress, are barred where the person was discharged under dishonorable conditions. The requirement of the
words “dishonorable conditions” will be deemed to have
been met when it is shown that the discharge or separation from active military or naval service was (1) for
mutiny, (2) spying or (3) for an offense involving moral
turpitude or wilful and persistent misconduct, of which
convicted by a civil or military court: Provided, however, That where service as otherwise honest, faithful
and meritorious a discharge or separation other than

App. 60
dishonorable because of the commission of a minor offense will not be deemed to constitute discharge or separation under dishonorable conditions.
*

*

*

(C) The acceptance of an undesirable or blue discharge to escape trial by general court-martial will, by
the terms of section 1503, Public No 346, 78th Congress, be a bar to beneﬁts under Public No. 2, 73d Congress, as amended, and Public No. 346, 78th Congress.
as it will be considered the discharge was under dishonorable conditions.
(D) An undesirable or blue discharge issued because of homosexual acts or tendencies generally will
be considered as under dishonorable conditions and a
bar to entitlement under Public No. 2, 73d Congress,
as amended, and Public No. 346, 78th Congress. However, the facts in a particular case nay warrant a different conclusion, in which event the case should be
submitted to central ofﬁce for the attention and consideration of the director of the service concerned. (As
to the effect of alienage see S. & P. R-1001 (J)). (August
9, 1946.)
*

*

*

38 C.F.R. § 3.1 Definitions.
*

*

*

(d) Veteran means a person who served in the
active military, naval, or air service and who was

App. 61
discharged or released under conditions other than
dishonorable.
*

*

*

(n) Willful misconduct means an act involving
conscious wrongdoing or known prohibited action. A
service department finding that injury, disease or
death was not due to misconduct will be binding on the
Department of Veterans Affairs unless it is patently inconsistent with the facts and the requirements of laws
administered by the Department of Veterans Affairs.
(1) It involves deliberate or intentional wrongdoing with knowledge of or wanton and reckless disregard of its probable consequences.
(2) Mere technical violation of police regulations
or ordinances will not per se constitute willful misconduct.
(3) Willful misconduct will not be determinative
unless it is the proximate cause of injury, disease or
death. (See §§ 3.301, 3.302.)
*

*

*

38 C.F.R. § 3.12 Character of discharge.
(a) If the former service member did not die in
service, pension, compensation, or dependency and indemnity compensation is not payable unless the period
of service on which the claim is based was terminated
by discharge or release under conditions other than

App. 62
dishonorable. (38 U.S.C. 101(2)). A discharge under
honorable conditions is binding on the Department of
Veterans Affairs as to character of discharge.
*

*

*

(c) Beneﬁts are not payable where the former
service member was discharged or released under one
of the following conditions:
(1) As a conscientious objector who refused to
perform military duty, wear the uniform, or comply
with lawful order of competent military authorities.
(2) By reason of the sentence of a general courtmartial.
(3) Resignation by an ofﬁcer for the good of the
service.
(4)

As a deserter.

(5) As an alien during a period of hostilities,
where it is afﬁrmatively shown that the former service
member requested his or her release. See § 3.7(b).
(6) By reason of a discharge under other than
honorable conditions issued as a result of an absence
without ofﬁcial leave (AWOL) for a continuous period
of at least 180 days. This bar to beneﬁt entitlement
does not apply if there are compelling circumstances to
warrant the prolonged unauthorized absence. This bar
applies to any person awarded an honorable or general
discharge prior to October 8, 1977, under one of the
programs listed in paragraph (h) of this section, and
to any person who prior to October 8, 1977, had not

App. 63
otherwise established basic eligibility to receive Department of Veterans Affairs benefits. The term
established basic eligibility to receive Department of
Veterans Affairs benefits means either a Department
of Veterans Affairs determination that an other than
honorable discharge was issued under conditions other
than dishonorable, or an upgraded honorable or general discharge issued prior to October 8, 1977, under
criteria other than those prescribed by one of the programs listed in paragraph (h) of this section. However,
if a person was discharged or released by reason of the
sentence of a general court-martial, only a ﬁnding of
insanity (paragraph (b) of this section) or a decision of
a board of correction of records established under 10
U.S.C. 1552 can estalish basic eligibility to receive Department of Veterans Affairs beneﬁts. The following
factors will be considered in determining whether
there are compelling circumstances to warrant the prolonged unauthorized absence.
(i) Length and character of service exclusive of
the period of prolonged AWOL. Service exclusive of the
period of prolonged AWOL should generally be of such
quality and length that it can be characterized as honest, faithful and meritorious and of beneﬁt to the Nation.
(ii) Reasons for going AWOL. Reasons which are
entitled to be given consideration when offered by the
claimant include family emergencies or obligations, or
similar types of obligations or duties owed to third parties. The reasons for going AWOL should be evaluated
in terms of the person’s age, cultural background,

App. 64
educational level and judgmental maturity. Consideration should be given to how the situation appeared to
the person himself or herself, and not how the adjudicator might have reacted. Hardship or suffering incurred during overseas service, or as a result of combat
wounds of other service-incurred or aggravated disability, is to be carefully and sympathetically considered
in evaluating the person’s state of mind at the time the
prolonged AWOL period began.
(iii) A valid legal defense exists for the absence
which would have precluded a conviction for AWOL.
Compelling circumstances could occur as a matter of
law if the absence could not validly be charged as, or
lead to a conviction of, an offense under the Uniform
Code of Military Justice. For purposes of this paragraph the defense must go directly to the substantive
issue of absence rather than to procedures, technicalities or formalities.
(d) A discharge or release because of one of the
offenses speciﬁed in this paragraph is considered to
have been issued under dishonorable conditions.
(1) Acceptance of an undesirable discharge to escape trial by general court-martial.
(2)

Mutiny or spying.

(3) An offense involving moral turpitude. This includes, generally, conviction of a felony.
(4) Willful and persistent misconduct. This includes a discharge under other than honorable conditions, if it is determined that it was issued because of

App. 65
willful and persistent misconduct. A discharge because
of a minor offense will not, however, be considered willful and persistent misconduct if service was otherwise
honest, faithful and meritorious.
(5) Homosexual acts involving aggravating circumstances or other factors affecting the performance
of duty. Examples of homosexual acts involving aggravating circumstances or other factors affecting
the performance of duty include child molestation, homosexual prostitution, homosexual acts or conduct accompanied by assault or coercion, and homosexual acts
or conduct taking place between service members of
disparate rank, grade, or status when a service member has taken advantage of his or her superior rank,
grade, or status.
(e) An honorable discharge or discharge under
honorable conditions issued through a board for correction of records established under authority of 10 U.S.C.
1552 is ﬁnal and conclusive on the Department of Veterans Affairs. The action of the board sets aside any
prior bar to beneﬁts imposed under paragraph (c) or
(d) of this section.
(f ) An honorable or general discharge issued
prior to October 8, 1977, under authority other than
that listed in paragraphs (h)(1), (2) and (3) of this section by a discharge review board established under 10
U.S.C. 1553 set aside any bar to beneﬁts imposed under
paragraph (c) or (d) of this section except the bar contained in paragraph (c)(2) of this section.

App. 66
(g) An honorable or general discharge issued on
or after October 8, 1977, by a discharge review board
established under 10 U.S.C. 1553, sets aside a bar to
beneﬁts imposed under paragraph (d), but not paragraph (c), of this section provided that:
(1) The discharge is upgraded as a result of an
individual case review;
(2) The discharge is upgraded under uniform
published standards and procedures that generally apply to an persons administratively discharged or released from active military, naval or air service under
conditions other than honorable; and
(3) Such standards are consistent with historical
standards for determining honorable service and do
not contain any provision for automatically granting or
denying an upgraded discharge.
(h) Unless a discharge review board established
under 10 U.S.C. 1553 determines on an individual case
basis that the discharge would be upgraded under uniform standards meeting the requirements set forth in
paragraph (g) of this section, an honorable or general
discharge awarded under one of the following programs does not remove any bar to beneﬁts imposed under this section:
(1) The President’s directive of January 19, 1977,
implementing Presidential Proclamation 4313 of September 16, 1974; or
(2) The Department of Defense’s special discharge review program effective April 5, 1977; or

App. 67
(3) Any discharge review program implemented
after April 5, 1977, that does not apply to all persons
administratively discharged or released from active
military service under other than honorable conditions.
*

*

*

